Memorandum from the Office of the Inspector General



June 13, 2006

Kenneth R. Breeden, OCP 1F-NST
Randy P. Trusley, WT 4B-K

FINAL REPORT – INSPECTION 2005-522I – REVIEW OF TVA’S ROLE AS A RATE
REGULATOR



Attached is the subject final report for your review and action. Your written comments,
which addressed your management decision and actions planned or taken, have been
included in the report. Please notify us when final action is complete.

Information contained in this report may be subject to public disclosure. Please advise us of
any sensitive information in this report which you recommend be withheld.

If you have any questions, please contact Gregory C. Jaynes, Deputy Assistant Inspector
General, Inspections, at (423) 751-7821 or me at (865) 632-6309. We appreciate the
courtesy and cooperation received from your staff during this inspection.




Ben R. Wagner
Assistant Inspector General
  (Audits and Inspections)
ET 3C-K

RCU:BKA
Attachment
cc (Attachment):
     Maureen H. Dunn, ET 11A-K
     Theresa A. Flaim, WT 7B-K
     Peyton T. Hairston, Jr., WT 7C-K
     John P. Kernodle, ET 10A-K
     Tom D. Kilgore, WT 7B-K
     Richard W. Moore, WT 4C-K
     OIG File No.2005-522I
                    Tennessee Valley Authority
                    Office of the Inspector General


Inspection Report



REVIEW OF TVA'S
ROLE AS A RATE
REGULATOR




Project Lead                              2005-522I
Rick C. Underwood                      June 13, 2006
Office of the Inspector General                                                 Inspection Report



TABLE OF CONTENTS
EXECUTIVE SUMMARY ............................................................... i

BACKGROUND ...................................................................................1

    THE TVA ACT ............................................................................... 1

    THE POWER CONTRACTS.......................................................... 2

OBJECTIVE, SCOPE, AND METHODOLOGY ....................... 3

OBSERVATIONS AND RECOMMENDATIONS ..................... 4
    TVA’S EVOLVING ROLE .............................................................. 5

    RESALE RATES............................................................................ 5
      Financial Rate Review and Ratio Analysis ..................................... 6
      Rate Reviews ............................................................................. 6
      Rate Analysis ............................................................................. 7

   USE OF REVENUES ...................................................................... 8

APPENDIX
MEMORANDUM DATED MAY 24, 2006, FROM RANDY TRUSLEY
TO BEN R. WAGNER




Inspection 2005-522I
Office of the Inspector General                                               Inspection Report


EXECUTIVE SUMMARY
We conducted a review to assess the Tennessee Valley Authority’s
(TVA) role as rate regulator over municipal utilities and cooperatives
(collectively “distributors”) which purchase TVA power. The TVA Act
imposes only one regulatory requirement, prohibiting discrimination
between consumers of the same class. The TVA Act, however, also
gives the Board authority to include terms and conditions in power
contracts as needed to carry out the purposes of the Act, which include
keeping rates as low as feasible. Pursuant to this authority, most power
contracts include, in addition to the required nondiscriminatory provision,
terms and conditions related to resale rates, use of revenues, and
financial and accounting requirements. i

In summary, we determined the following:

x      TVA is in a unique position as both a seller of electric power and a
       regulator over the rates charged by many of its customers. We
       believe there is an increasing inherent conflict in TVA serving as a
       regulator while working to ensure good customer relations. We
       further note, however, that distributors regulated by TVA face other
       pressures to control rates. For example, 717 publicly-owned
       electric systems responded to a September 2005 survey by the
       American Public Power Association indicating that they set rates
       without review by any independent regulatory body, instead relying
       on their elected officials or independent utility boards to control
       rates.ii

x      In balancing these roles, TVA routinely reviews and approves
       resale rates. In performing this review function, TVA conducts
       financial modeling and analysis and works with distributors in a
       consultative manner regarding proposed rate adjustments. There
       are no formalized guidelines or specific criteria related to when rate
       adjustments should be disallowed.

x      In addition to the review and approval of resale rates, TVA’s power
       contract generally restricts distributors’ use of electric revenues to
       exclude uses for non-electric system purposes. According to
       listings provided by Contracts and Pricing (CP), TVA has modified
       the contract requirements for at least 11 distributors since May
i
     Consistent with other municipal electric companies outside the Tennessee Valley, four
     distributors have opted out of TVA rate regulation.
ii
     According to the survey, the majority of respondents, or 60 percent, is governed by a city
     council, while the remaining 40 percent are governed by an independent utility board. City
     councils play a large part in determining the make-up of appointed utility boards as they
     either appoint or approve the board in most cases.
Inspection 2005-522I                                                                     Page i
Office of the Inspector General                           Inspection Report


    1998 to allow for the use of electric revenues for non-electric
    system purposes, including businesses involving broadband/fiber
    optic systems related to cable TV, Internet, and telephone. Per
    discussions with CP and Cost and Performance Analysis (C&PA)
    personnel, TVA approval of these non-electric uses of funds is
    based on review of business plans that (1) indicate potential
    benefits to the economy of the distributor’s community and
    (2) consider the financial impact on the distributor. However, we
    found no documented guidelines on how these reviews should be
    conducted or when these uses should be approved.

x   Additional information provided by C&PA appeared to indicate that
    another 13 distributors had used electric system funds for non-
    electric system uses. We requested the "Joint Use Agreements"
    for these 13 distributors; however, TVA management has not been
    able to provide them. Without a contract modification in the form of
    a "Joint Use Agreement," these distributors would appear to be in
    violation of the power contract.

We recommended that the Chief Financial Officer:

x   Continue to evaluate TVA’s role as regulator of rates as the issues
    of deregulation and customer choice evolve.
x   Formalize procedures to ensure consistent review of (1) distributor
    financial information, including whether additional guidance should
    be developed to ensure the public interest of low rates is achieved;
    and (2) business plans which propose the use of electric system
    revenues for non-electric system purposes.
x   Ensure that contract modifications are executed for any distributors
    approved to use electric system revenues for non-electric system
    purposes.

TVA management agreed with our recommendations, and we concur
with their planned actions. See Appendix for a complete response.




Inspection 2005-522I                                                Page ii
Office of the Inspector General                                             Inspection Report


BACKGROUND
Tennessee Valley Authority (TVA) sells power to 108 municipal
utilities and 50 cooperatives (collectively “distributors”) that serve
8.5 million people and 650,000 businesses and industries in the
seven-state TVA area. TVA’s regulatory authority is exercised
through the terms and conditions included in TVA’s individual power
contracts with these 158 distributors.1 The basis for the terms and
conditions included in the contracts can be found in the TVA Act.

THE TVA ACT
Section 12 of the TVA Act specifically addresses TVA’s
responsibilities to regulate the resale of TVA power. Section 12
states:

      That all contracts entered into between the Corporation and any
      municipality or other political subdivision or cooperative
      organization shall provide that the electric power shall be sold and
      distributed to the ultimate consumer without discrimination as
      between consumers of the same class, and such contract shall be
      voidable at the election of the Board if a discriminatory rate, rebate,
      or other special concession is made or given to any consumer or
      user by the municipality or other political subdivision or cooperative
      organization.

Other than the nondiscrimination provision, TVA’s Board was provided
discretion in determining how to achieve the Act’s objectives. The Act
gave the Board broad authority over resale rates and conditions of
service. Specifically:

x     Section 10 authorizes the TVA Board “to include in any contract for
      the sale of power such terms and conditions, including resale rate
      schedules, and to provide for such rules and regulations as in its
      judgment may be necessary or desirable for carrying out the
      purposes of this Act. . . .”

x     Section 15d.(f) provides that one of the primary objectives of the
      TVA Act is that, “power shall be sold at rates as low as are
      feasible.”




1
    Consistent with other municipal electric companies outside the Tennessee Valley, four
    distributors have opted out of TVA rate regulation.
Inspection 2005-522I                                                                   Page 1
Office of the Inspector General                           Inspection Report


THE POWER CONTRACTS
The TVA Board, using its discretionary authority, incorporated
provisions in the power contracts consistent with the statutory
requirements and objectives of the TVA Act. The major regulatory
sections of the generic power contract and accompanying schedule of
terms and conditions that provide the basis for TVA’s regulatory model
include:

x   Section 5, Resale Rates – Distributors must ensure that (1) power
    shall be sold and distributed to the ultimate consumer without
    discrimination among consumers of the same class, (2) consumers
    will be served in accordance with the schedule of rates and
    charges, and (3) rates and charges in the resale schedules will
    provide for the operation and maintenance of the electric system
    on a self-supporting and financially-sound basis.
x   Section 5(c) – If the rates and charges provided for in said resale
    agreement do not produce sufficient revenues to provide for the
    operation and maintenance of the electric system on a self-
    supporting and financially sound basis, including requirements for
    interest and principal payments on indebtedness incurred or
    assumed by Municipal/Cooperative for the acquisition, extension,
    or improvement of the electric system (hereinafter called “System
    Indebtedness”), the parties shall agree upon, and Municipal/
    Cooperative shall put into effect promptly, such changes in rates
    and charges as will provide the increased revenues necessary to
    place the system upon a self-supporting and financially sound
    basis. If the rates and changes in effect at any time provide
    revenues that are more than sufficient for such purposes, as more
    particularly described in Section 6 hereof, the parties shall agree
    upon a reduction in said rates and charges, and Municipality shall
    promptly put such reduced rates and charges into effect.
x   Section 6, Use of Revenues – Distributors agree to use gross
    revenues from electric operations for (1) current electric system
    operating expenses; (2) current payments of principal and interest
    on system indebtedness; (3) funding reasonable reserves for
    renewals, replacements, contingencies, and working capital; and
    (4) tax equivalent payments to general funds. All revenues
    remaining over and above the requirements described above shall
    be considered surplus revenues and may be used for new electric
    system construction or the retirement of system indebtedness prior
    to maturity; provided, however, that resale rates and charges shall
    be reduced from time-to-time to the lowest practicable levels
    considering such factors as future circumstances affecting the
    probable level of earnings, the need or desirability of financing a
Inspection 2005-522I                                                Page 2
Office of the Inspector General                            Inspection Report


    reasonable share of new construction from such surplus revenues,
    and fluctuations in debt service requirements.
x   Schedule of Terms and Conditions, Section 1, Financial and
    Accounting Policy – Distributors must:
     Administer, operate, and maintain the electric system as a
      separate department; maintain a separate fund for revenues
      from electric operations; not mingle electric system funds or
      accounts; or not consolidate or combine the financing of the
      electric system with any other operations.
     Keep the general book of accounts of the electric system
      according to the Federal Energy Regulatory Commission
      (FERC) Uniform System of Accounts.
     Supply TVA with an annual financial report and other operating,
      statistical, and financial reports relating to the operating system
      as requested by TVA.
     Have the electric system financial statements examined by
      independent certified accountants in accordance with generally
      accepted auditing standards.


OBJECTIVE, SCOPE, AND METHODOLOGY
Our objective was to assess TVA’s role as a rate regulator over
108 municipal utilities and 50 cooperatives representing over $7 billion
in power revenues from 8.5 million people and 650,000 businesses
and industries in the seven-state TVA region. To achieve our
objective, we:

x   Reviewed (1) The TVA Act, (2) TVA’s generic power contract,
    (3) TVA’s distributor rate review process, and (4) other
    documentation to gain an understanding of TVA’s role as a
    regulator.
x   Conducted interviews with (1) Office of the General Counsel;
    (2) Cost and Performance Analysis (C&PA), TVA Chief Financial
    Officer (CFO); and (3) Contracts and Pricing (CP), Customer
    Service and Marketing (CS&M), to identify TVA’s roles and
    responsibilities in the monitoring of distributor rates and use of
    power revenues.
x   Conducted interviews with C&PA personnel to:
    – Determine policies and procedures followed and/or tools used to
      fulfill TVA’s responsibilities.

Inspection 2005-522I                                                 Page 3
Office of the Inspector General                                                Inspection Report


      – Identify policies and/or procedures in use for monitoring
        distributor’s financial position.
      – Determine what action TVA takes if a distributor does not
        comply with the financial provisions of the TVA power contract.
x     Conducted an analytical review of selected TVA distributor
      financial modeling data and interviewed, as appropriate, C&PA
      field accountants to assess regulatory activities and identify
      distributors with potential excess funds.
x     Reviewed additional selected distributor financial information for
      fiscal years (FY) 2004 and 2005.2
x     Reviewed C&PA rate increase information to determine the extent
      of financial reviews.
x     Reviewed information provided by C&PA and CP personnel listing
      distributors that considered business plans using electric system
      funds for non-electric system purposes, including those for whom
      TVA approved the use of electric system funds for non-electric
      system purposes.
x     Verified that a contract supplement was executed for the two
      distributors that had submitted business plans and had them
      approved within the 12 months prior to November 1, 2005.

Our scope did not include testing to confirm the accuracy of the
financial information submitted by distributors. This inspection was
conducted in accordance with the “Quality Standards for Inspections.”


OBSERVATIONS AND RECOMMENDATIONS
TVA is in a unique position as both a seller of electric power and a
regulator over the rates charged by many of its customers. In
balancing these roles, TVA reviews distributors’ financial condition,
including proposed rate increases, and their use of revenues.
However, we found no formalized guidelines or specific criteria:

x     Related to when rate adjustments should be disallowed.
x     Prescribing specific steps to be performed in the reviews of
      distributors’ financial information and business plans, when
      distributors request the use of electric system revenues for
      non-electric system purposes.

2
    When we refer to FYs in this report, we are referring to the distributor FY which runs from
    July 1 through June 30.
Inspection 2005-522I                                                                      Page 4
Office of the Inspector General                                              Inspection Report


TVA’S EVOLVING ROLE
As deregulation has become more of a factor, TVA’s role has evolved.
Before the concept of deregulation, TVA supplied power to largely
captive customers within the Valley. Distributors for the most part did
not have an option of purchasing power from anyone but TVA.
Correspondingly, TVA was restricted in the power it could sell outside
the Valley. Accordingly, TVA did not have to be as concerned about
the inherent conflict between acting as a regulator and preserving its
customer base.

In recent years, however, distributors have begun to see options to
purchase power from companies other than TVA, as illustrated by
those distributors who have given TVA notice of intent to leave the
system. The restrictions on TVA selling power outside the Valley,
however, remain unchanged. Because TVA cannot obtain new
customers outside the Valley, TVA has a strong incentive to take
steps to ensure it retains its current customers. As competition
becomes more and more of a reality, this incentive grows. It also
inherently conflicts with TVA’s past role as a regulator.

We believe there is an increasing inherent conflict in TVA serving as a
regulator, while working to ensure customer satisfaction and retention.
We further note in this regard that distributors regulated by TVA face
other pressures to control rates. For example, 717 publicly-owned
electric systems responded to a September 2005 survey by the
American Public Power Association indicating that they set rates
without review by any independent regulatory body, instead relying on
their elected officials or independent utility boards to control rates.3

RESALE RATES

TVA’s regulatory authority is exercised through the terms and
conditions included in the individual power contracts. The only
regulatory responsibility mandated by the TVA Act is that distributors
not discriminate among customers of the same class. As noted
previously, however, the TVA Board has used the broad discretion
given it in the TVA Act also to include in the power contracts terms
and conditions governing customer resale of electric power.




3
    According to the survey, the majority of respondents, or 60 percent, is governed by a city
    council, while the remaining 40 percent are governed by an independent utility board. City
    councils play a large part in determining the make-up of appointed utility boards as they
    either appoint or approve the board in most cases.
Inspection 2005-522I                                                                    Page 5
Office of the Inspector General                            Inspection Report


We found that in performing its review function, TVA conducts
financial modeling and analysis and works with distributors in a
consultative manner to ensure rate adjustments are appropriate.

Financial Rate Review and Ratio Analysis
C&PA monitors compliance with distributor contract provisions and
distributor financial health by performing financial analyses. C&PA
analyses include using distributor monthly and annual financial data
and a financial modeling tool to perform ratio analysis. Specifically:

x   TVA requires distributors to provide monthly and annual financial
    data for inclusion in its modeling software.
x   C&PA field accountants review distributor monthly and annual
    financial data, sales statistics, and independent audit reports, and
    evaluate application of FERC accounting procedures.
x   C&PA prepares annual financial reports that include financial
    statements and key financial indicators with benchmark
    comparisons to other TVA distributors. This report is developed for
    TVA internal reviews and evaluations and is provided to
    distributors for monitoring their own performance.
x   The financial data reported to TVA is also reconciled to
    independent auditors’ reports by the C&PA field accountants.

Per discussions with the field accountants, resources allocated to the
C&PA group have fluctuated many times in the past several years,
with the number of field accountants ranging between 3 and 25. The
number of individuals currently employed in this area has been
increased from three to five in the last year. The field accountants
stated that their goal is to complete two joint cost analyses or in-depth
financial analyses per year in addition to other reviews performed
above. In addition, there is one economist assigned to this group
performing financial analysis and maintaining the modeling software.

Rate Reviews
The rates charged by the distributors and set forth in the power
contract “Schedule of Rates and Charges” are reviewed and approved
by TVA. TVA develops the guideline for distributor rate increases
based on an established formula, which is based on normal increases
in operating expenses, customer growth, and inflation. According to
C&PA, they strive to perform an in-depth financial analysis of any
distributors who request a rate increase above the guideline amount
or when TVA determines (through review of profitability, liquidity, and
debt coverage ratios) the distributor may have excess cash.


Inspection 2005-522I                                                 Page 6
Office of the Inspector General                                          Inspection Report


For FY 1999 through FY 2005, there were 240 rate increases with
121 being less than the guideline amount and 119 greater than the
guideline amount. According to C&PA personnel, in-depth financial
analyses were performed for all of the distributors with proposed rate
increases above the guideline. During FY 2004, there were
97 requests for rate increases and all were approved with the
exception of three increases which were postponed based on C&PA’s
recommendation.

Ratio Analysis
The Economist, C&PA, indicated that the normal range for the cash
ratio4 for distributors is five to eight percent. C&PA has guidelines of
critical limits which are used in evaluation of a distributor’s financial
condition through analysis and review of profitability, liquidity, and debt
coverage ratios which indicate a distributor may be nearing a level of
financial difficulty. However, there have been no guidelines
established for the ratios used in their financial analysis to indicate
when a distributor’s rates and charges produce revenues more than
sufficient for the operation and maintenance of the electric system on
a self-supporting and financially-sound basis.

We reviewed the C&PA FY 2004 ratio analyses and identified
50 distributors with cash ratios ranging from 12.5 percent to in excess
of 50 percent. For these 50 distributors, we noted the following
related to rate actions:

x     Thirty-two of the 50 distributors had rate increases in FY 2006.
x     Four of the 32 distributors had an approved rate increase during
      FY 2006 in excess of TVA’s guideline amount. According to
      C&PA, (1) increases were approved based on justification provided
      by the distributors, and (2) distributors are asked to provide
      reasons and future plans to justify raising rates over the guideline
      amount.
x     Five of the 50 distributors reviewed were allowed to use electric
      system funds for non-electric system purposes.
x     About half of the 50 distributors had cash on-hand on June 30,
      2005, that ranged from two to five times their annual operations
      and maintenance expenses. Fourteen of these distributors had
      rate increases approved for FY 2006 with one exceeding the
      guideline amount.



4
    C&PA calculates cash ratio as Unrestricted Cash and Temporary Cash Investments divided
    by Power Cost plus Operating and Maintenance Expense.
Inspection 2005-522I                                                               Page 7
Office of the Inspector General                            Inspection Report


We also judgmentally selected 21 of the identified distributors for
discussion with the responsible field accountant to determine TVA’s
knowledge regarding the justification for the FY 2004 ratios. The field
accountants responsible for 11 of the selected distributors had just
returned to the department in FY 2005 and had not reviewed the ratios
from the previous year’s results. For the other ten distributors, the
explanations provided fell into the following categories:

x   Three – Funds were being spent on capital projects.
x   Five – Ratios alone could be misleading. These are very small
    distributors and any excess could be wiped away by damage from
    one storm.
x   One – TVA is currently working with distributor to reduce rates over
    time.
x   One – All cash appeared to be restricted.

Our analysis in and of itself is not a complete indicator of the financial
health of a distributor. It illustrates, however, the need for consistent
guidelines and specific criteria for determining when it is appropriate to
work with the distributors to restrict increases or reduce rates. As
noted above, TVA has performed a regulatory role in a consultative
manner given the potential for a deregulated environment.
Additionally, TVA has worked with distributors on occasion to
postpone rate increases.

USE OF REVENUES
As noted previously, TVA’s power contracts with distributors
generally require that gross revenues from electric operations be
used for specified electric system purposes. According to C&PA and
CP, revenue use requirements are monitored through the review of
financial reports and business plans submitted to TVA and through
day-to-day contact between C&PA field accountants, customer
service staff, and distributor staff. TVA also prepares periodic joint
use studies to ensure proper allocation of costs between electric and
non-electric departments or businesses.

We found that in certain cases, after review of the proposed business
plan and the distributor’s financial condition, TVA has allowed
distributors to use electric system revenues to fund new business
ventures (telecommunications, electric utility supply business, etc.)
deviating from the standard “Use of Revenues” requirements in the
power contract. In these cases, TVA enters into a “Joint Use
Agreement” with the distributor as provided for in Section 1(a) of the
Inspection 2005-522I                                                 Page 8
Office of the Inspector General                                            Inspection Report


“Schedule of Terms and Conditions” of the Power Contract with the
distributor. This agreement allows the distributor to use electric
system funds for non-electric system uses based on assurances from
the distributor regarding the venture and terms and conditions set by
TVA for the uses of the funds. CP provided a listing of 11 distributors
who had entered into these agreements with TVA.

Additional information provided by C&PA appeared to indicate that
another 13 distributors had used electric system funds for non-electric
system uses. We requested the "Joint Use Agreements" for these
13 distributors; however, TVA management has not been able to
provide them. Per the Manager, Product Management & Specialized
Projects, "Approval of such ventures via a letter from the Customer
Service Manager may have been provided." Without a contract
modification in the form of a "Joint Use Agreement," these distributors
would appear to be in violation of the power contract.

The non-electric business ventures submitted to TVA between May
1998 and July 2005 included cable TV, Internet, telephone, propane
or natural gas, and other business activities.5 Some distributors
submitted a business plan and began construction. Other distributors
had plans prepared but decided not to enter when city governments
would not guarantee financing. Within the past year, four requests for
non-electric use of electric system funds have been submitted:

x     Two business plans have been presented and the non-electric use
      of electric system funds approved.
x     One business plan has been submitted and is being reviewed.
x     Partial business plan documentation including “pro forma” financial
      statements and projected business trends have been submitted
      and non-electric use of electric system funds approved for wireless
      Internet.

Based on discussions with CP and C&PA personnel, these approvals
have been based on review of proposed business plans that indicate
a potential economic benefit to the distributor’s community and
limited financial risk to the electric system. When a business plan is
submitted, a determination is made whether the business venture
affects the electric system financially. If the conclusion is that it does,
then an analysis is performed to determine the extent of that financial

5
    The majority of requests were submitted by distributors in Tennessee after a 1999
    amendment to Tennessee state law which allowed municipalities to use electric revenues
    as loans for businesses related to the provision of cable service, two-way video
    transmission, video programming, Internet services, or any other like system, plant, or
    equipment.
Inspection 2005-522I                                                                  Page 9
Office of the Inspector General                            Inspection Report


impact. Issues considered include, but are not limited to, any joint
use of electric department assets and staff, any assets or revenues
pledged for debt collateral, lending or pledging of funds, and
assumption of shortfalls during startup periods. Worst case
scenarios are viewed with the potential impact on cash position and
resale electric rates. Staff comments are offered on obvious
omissions within a business plan such as neglect in addressing
competition, changes in technology, or revealing the source of
financing; however, the prime emphasis of the analysis is to assess
the financial impact on the electric system. An opinion is not
generally expressed on the viability of a business and its ultimate
failure or success. We found no specific criteria, however, regarding
when use of electric system revenues for non-electric system
purposes should be approved or disapproved.

Recommendations
We recommended that the Chief Financial Officer:
x   Continue to evaluate TVA’s role as regulator of rates as the issues
    of deregulation and customer choice evolve.
x   Formalize procedures to ensure consistent review of (1) distributor
    financial information, including whether additional guidance should
    be developed to ensure the public interest of low rates is achieved;
    and (2) business plans which propose the use of electric system
    revenues for non-electric system purposes.
x   Ensure that contract modifications are executed for any distributors
    approved to use electric system revenues for non-electric system
    purposes.

Management’s Response - The Vice President and Controller
provided comments on a draft of this report and agreed to implement
our recommendations.

In response to our recommendations, management plans to take the
following actions:

x   A multi-organizational team (CFO will initiate) with representatives
    from CFO, Customer Service & Marketing, and OGC will review
    and make recommendations regarding TVA’s role as a regulator of
    rates and as reviewers of use of the electric system for non-electric
    system purposes. Planned completion of the recommendations is
    scheduled for December 31, 2006.




Inspection 2005-522I                                               Page 10
Office of the Inspector General                           Inspection Report


x   CFO will formalize current documentation of procedures for
    reviewing (1) distributor financial information, including whether
    additional guidance should be developed to insure public interest
    of low rates is achieved; and (2) business plans which propose the
    use of electric system revenues for non-electric system purposes.
    This will incorporate output from the multi-organizations team
    reviewing TVA’s role as a regulator of rates and as reviewer of the
    use of the electric business for non-electric system purposes.
    Planned completion is December 31, 2006.

The complete text of TVA management’s response is provided in the
Appendix.

Auditor’s Comments – We concur with TVA management’s planned
actions.




Inspection 2005-522I                                              Page 11
APPENDIX
Page 1 of 1
